<html>
<title> - THE ENVIRONMENTAL IMPACT OF MERCURY-CONTAINING DENTAL AMALGAMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
     THE ENVIRONMENTAL IMPACT OF MERCURY-CONTAINING DENTAL AMALGAMS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2003

                               __________

                           Serial No. 108-102

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                ________


                   U.S. GOVERNMENT PRINTING OFFICE
91-841                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Staff Director
                  John Rowe, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 8, 2003..................................     1
Statement of:
    Eichmiller, Dr. Fredrick, director, American Dental 
      Association Health Foundation, Paffenbarger Research 
      Center, National Bureau of Standards & Technology, 
      accompanied by Jerome Bowman, ADA staff attorney; Norman 
      LeBlanc, chief, technical services, Hampton Roads 
      Sanitation District; Peter Berglund, PE, principal 
      engineer, Metropolitan Council of Environmental Services, 
      Industrial Waste Section; and David Galvin, project 
      manager, Hazardous Waste Management Program, King County 
      Department of Natural Resources and Parks, Water and Land 
      Resources Division.........................................    37
    Grubbs, Geoffrey, Director, Office of Science and Technology; 
      and Capt. James Ragain, Jr., Dental Corps, U.S. Navy, 
      accompanied by CDR. John Kuehne, U.S. Navy; and Dr. Mark 
      Stone, Program Manager for the NIDBR Mercury Abatement 
      Program....................................................     7
Letters, statements, etc., submitted for the record by:
    Berglund, Peter, PE, principal engineer, Metropolitan Council 
      of Environmental Services, Industrial Waste Section, 
      prepared statement of......................................    53
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, article dated October 7, 2003..................     2
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    27
    Eichmiller, Dr. Fredrick, director, American Dental 
      Association Health Foundation, Paffenbarger Research 
      Center, National Bureau of Standards & Technology, prepared 
      statement of...............................................    40
    Galvin, David, project manager, Hazardous Waste Management 
      Program, King County Department of Natural Resources and 
      Parks, Water and Land Resources Division, prepared 
      statement of...............................................    64
    Grubbs, Geoffrey, Director, Office of Science and Technology, 
      prepared statement of......................................    10
    LeBlanc, Norman, chief, technical services, Hampton Roads 
      Sanitation District, prepared statement of.................    58
    Ragain, Capt. James, Jr., Dental Corps, U.S. Navy, prepared 
      statement of...............................................    21
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    79















     THE ENVIRONMENTAL IMPACT OF MERCURY-CONTAINING DENTAL AMALGAMS

                              ----------                              


                       WEDNESDAY, OCTOBER 8, 2003

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4 p.m., in 
room 2157, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton and Cummings.
    Staff present: Mark Walker, staff director; John Rowe and 
Brian Fauls, professional staff member; Danielle Perraut, 
clerk; Nick Mutton, press secretary; Richard Butcher, minority 
professional staff member; and Cecelia Morton, minority office 
manager.
    Mr. Burton. A quorum being present, the Subcommittee on 
Human Rights and Wellness will come to order. I ask unanimous 
consent that all Members and witnesses' written and opening 
statements be included in the record. Without objection, so 
ordered. I ask unanimous consent that all articles, exhibits 
and extraneous or tabular material referred to be included in 
the record. Without objection, so ordered.
    Recently, there was an incident at a local high school here 
in D.C. that rightfully received front page news and that 
dramatically illustrates the danger of mercury toxicity. Just 
last week, several students walked into an unlocked chemistry 
lab, stole a vial of mercury and decided to splash it all over 
the floors and walls of the school. The result was an immediate 
evacuation and closure of the building. The building could be 
closed for as long as 4 months while authorities work to ensure 
that all traces of the mercury have been eliminated. During the 
extensive cleanup process, students will have to attend classes 
in uncontaminated buildings and they have been instructed to 
turn in the clothes that they were wearing and their shoes that 
they wore that day of the incident to have them decontaminated.
    [The information referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. I am sure that everyone here today would agree 
that these precautions make perfect sense in order to safeguard 
and protect the health of the students, teachers and staff. I 
personally believe that there is no more important function of 
government than doing everything in its power to protect the 
health and well-being of its citizens. That is why as chairman 
of the House Committee on Government Reform and now the 
chairman of the Subcommittee on Human Rights and Wellness, I 
have led a 2-year-long investigation into the dangers of using 
highly toxic mercury in everyday medical and dental procedures.
    Mercury is one of the most toxic elements found in nature, 
second only to radioactive materials. While some minerals are 
beneficial to human life, mercury is most assuredly not, 
because the human body was not designed or ever meant to ingest 
mercury. Consequently, the human body has no effective filter 
or elimination system for it. The end result is that much of 
the ingested mercury accumulates in the body's tissue, 
including the nervous system and vital organs, such as the 
brain.
    Previous committee and subcommittee hearings have focused 
on the dangers of mercury-containing thimerosal in vaccines and 
mercury-containing dental amalgam fillings. In each case, 
credible witnesses provided clear and convincing scientific 
testimony that links mercury in the human body to a variety of 
developmental and neurological disorders from modest declines 
in intelligent quotient, to tremors, Alzheimer's disease and 
autism.
    As the dangers of mercury have become more widely 
understood, government agencies on the Federal, State and local 
level have acted to eliminate mercury from common items like 
thermometers, blood pressure gauges, light switches, cosmetics 
and teething powder. Yet despite all the evidence to the 
contrary, mercury amalgam fillings continue to be routinely 
used in human dentistry. Collectively Americans are walking 
around today with 800 metric tons of mercury in their mouths 
and tens of millions of mercury-containing fillings continue to 
be put into Americans' teeth every single year. In spite of 
overwhelming evidence that mercury is especially dangerous to 
young children and women of child-bearing age, millions of 
mercury amalgams continue to be placed in their mouths every 
single year, and dentists cannot honestly say that they are not 
aware of the dangers of mercury.
    In fact, dentists take routine precautions against this 
dangerous substance. Mercury-containing amalgam scraps and 
extracted teeth with amalgam fillings according to protocol 
must be stored in sealed jars under liquid until a special 
hazardous materials recycler picks them up for special 
disposal. Unfortunately, a lot of them get into the water 
supply.
    If dentists are aware of the dangers of mercury, why is 
this toxic material still being used? The answer is that the 
dental establishment continues to hold to the scientific 
fiction that a material that is hazardous before it goes into 
your mouth and hazardous after it comes out of your mouth is 
somehow perfectly safe while it is in your mouth. This 
disconnect in logic simply does not make sense and it flies in 
the face of a growing body of credible scientific evidence.
    The fact is that dentistry continues to dangerously expose 
humans to mercury, both through direct implantation of amalgams 
into patients' teeth and again during the disposal process by 
increasing the amount of mercury in our wastewater treatment 
plants.
    The Association of Metropolitan Sewerage Agencies [AMSA], 
estimates that on average dentists contribute 35 to 40 percent 
of the influent mercury received by publicly owned sewerage 
treatment plants. In many municipalities, dentists are the 
highest, largest source of wastewater mercury.
    And as an element, mercury remains always mercury.
    Wastewater treatment plants cannot simply treat it. It must 
be completely removed from the wastewater system and stream.
    If the mercury is not removed, heavy particles of mercury 
settle into treatment plant sludge. Eventually that sludge 
either gets incinerated, releasing its mercury directly into 
the atmosphere or it gets spread out on agricultural fields as 
fertilizer. Over time, bacteria help recirculate that mercury 
back into the environment. So mercury that ultimately escapes 
into the environment inevitably ends up in the food we eat and 
the air we breathe.
    AMSA has estimated that it costs as much as $21 million per 
pound to safely remove mercury once it becomes part of the 
wastewater stream. If the American Dental Association's 
estimate is correct that approximately 6\1/2\ tons of mercury 
enter public wastewater treatment facilities from dental 
offices every year at $21 million per pound, the cost to remove 
that amount of mercury would be approximately $273 billion 
annually. That is a staggering amount of money.
    A more cost effective solution in my opinion would be to 
simply stop the mercury contamination at its source within the 
dentists' offices. The technology to do just that exists today. 
The only thing standing in the way of using it is professional 
inertia.
    Today's hearing will examine the facts surrounding dental 
amalgam's impact on the environment, discuss some cost 
effective measures to mitigate that impact and to promote 
improved mercury-safe communities for all Americans. I look 
forward to hearing what our expert witnesses have to say today.
    Many of my colleagues because of the lateness of the hour 
had to catch planes, and so I apologize for them not being 
here. We have some of their statements which we will include in 
the record. I am told that Mr. Sanders and Mr. Cummings will be 
here shortly.
    In the meantime, I would like to bring our first witnesses 
to the table and have them sworn. Mr. Geoffrey Grubbs, Director 
of the Office of Science and Technology at the EPA, and Captain 
James Ragain Jr. with the Dental Corps of the U.S. Navy.
    Would you please stand and raise your right hands? We have 
two other people with you. Would you identify them?
    Captain Ragain. Yes, sir. On my immediate left is Commander 
John Kuehne, U.S. Navy, and Dr. Mark Stone.
    Mr. Burton. Very good. They might participate, so I will 
have them raise their right hands, too.
    [Witnesses sworn.]
    Mr. Burton. Mr. Grubbs, would you want to start or Captain 
Ragain?

STATEMENTS OF GEOFFREY GRUBBS, DIRECTOR, OFFICE OF SCIENCE AND 
  TECHNOLOGY; AND CAPT. JAMES RAGAIN, JR., DENTAL CORPS, U.S. 
NAVY, ACCOMPANIED BY CDR. JOHN KUEHNE, U.S. NAVY; AND DR. MARK 
 STONE, PROGRAM MANAGER FOR THE NIDBR MERCURY ABATEMENT PROGRAM

    Mr. Grubbs. I will be glad to start. With your permission, 
I would like to submit the entire statement for the record and 
just touch on a few quick highlights in the interest of time 
here.
    Mercury persists in the environment and under certain 
conditions inorganic mercury in fresh and salt water is 
transformed by microorganisms into organic methylmercury. This 
transformation enables mercury to accumulate in the tissue of 
fish and other organisms. Relatively higher concentrations can 
be found in the top of the food chain in larger ocean going 
predatory fish.
    Moving to the next page of my testimony so you can follow 
along in my skipping here, concentrations in water of mercury 
from all sources are low and of little immediate health 
concern, referring to acute toxicity problems. The greatest 
mercury exposure and the greatest potential risk exists for 
those persons who regularly eat fish containing elevated levels 
of methylmercury over long periods of time. Approximately 8 
percent of reproductive aged women in a recent study conducted 
by the Centers for Disease Control within HHS had blood mercury 
concentrations higher than a safe level based on EPA's 
reference dose and that is the level that EPA has determined is 
safe. Forty-four States, one territory and three tribes have 
issued fish consumption advisories for mercury contaminated 
fish, all of whom are based, or nearly all of them are based on 
EPA's advice.
    I am going to skip to the section marked Mercury in Dental 
Waste on page 3. Dental amalgam contributes a small proportion 
of all mercury released to the environment from human 
activities. Virtually all releases of dental amalgam to water 
are through municipal wastewater facilities. A recent study by 
the American Metropolitan Sewerage Authorities found that 
dental clinics account for an average of more than 35 percent 
of the mercury influent to the sewerage treatment plants.
    An American Dental Association survey indicates that in 
1996 the dental industry used 31 metric tons of mercury. The 
majority of waste dental mercury amalgam from chairside drains 
is removed by traps and vacuum filters but according to several 
reports, 25 to 40 percent of the mercury-containing amalgam 
waste is discharged to sewer systems. The physical processes 
used in sewerage treatment plants remove about 95 percent of 
the mercury received in wastewater. The mercury removed from 
wastewater then resides in the biosolids or it is sometimes 
called sludges generated during primary and secondary treatment 
processes. EPA estimates that sewage sludge nationally contains 
about 15 tons of mercury per year and this is from all sources, 
not just from dental amalgam. Sewerage treatment plants 
discharge about a half a ton of mercury to surface waters per 
year nationally, again from all sources.
    We do not know exactly the proportion of mercury that is 
found in fish originates in dental amalgam as compared to other 
mercury sources. The mercury contained in amalgam is not 
methylmercury and tends to stay bound in the amalgam. However, 
dental amalgam can break down and at least one report has shown 
that it can be released into the environment.
    The amount of mercury from dental amalgams that is 
methylated is not currently known. The American Dental 
Association has identified numerous best management practices 
for reducing mercury waste from dental amalgam, including 
chairside screens and traps. Amalgam separators are available 
at a relatively low cost to remove fine particles of waste 
amalgam. The choice of dental treatment rests solely with 
dental professionals and their patients and EPA does not intend 
to second-guess those treatment decisions. However, over time 
as fewer mercury-containing dental amalgams are used in favor 
of composites, amalgam will become less of a source of mercury 
in the environment.
    Turning to EPA actions, EPA is working on a mercury action 
plan to describe EPA's long-term goals and near-term priority 
actions involving mercury in all media and under all of EPA's 
statutory authorities. Under the Clean Air Act in the United 
States, we have cut emissions by over 90 percent from two of 
the largest categories of sources of airborne mercury, 
municipal waste combustion and medical waste incineration. 
These are through maximum achievable control technology 
requirements.
    The United States also has a goal under the Great Lakes 
Binational Strategy which we executed with the country of 
Canada to reduce mercury emissions and water releases by 50 
percent from 1990 levels. That would be done by 2006.
    The administration has proposed the clear skies legislation 
that would create a mandatory program to reduce from power 
plants emissions of mercury, sulfur dioxide and nitrogen 
oxides, and in this proposal mercury emissions would be cut by 
70 percent by the year 2018.
    Under the Clean Water Act, which is primarily where I work, 
through the NPDES discharge permit program, those are 
regulatory permits issued to all dischargers and the national 
pretreatment programs which sewerage treatment plants need to 
deal with. EPA and authorized States encourage sewerage 
treatment plants to develop and implement pollution prevention 
strategies to reduce the amount of mercury received by the 
wastewater treatment plant. There are several examples of that 
we can provide to you.
    The Clean Water Act requires EPA to develop scientific 
information on safe levels of pollution and for States to adopt 
water quality standards for open and ambient water that protect 
human health and the environment. In January 2001, EPA 
published a new ambient water quality criterion recommendation 
for methylmercury which is expressed as a fish and shellfish 
tissue value rather than as an ambient water column value. 
States are now starting to adopt this new water quality 
criterion into their water quality standards.
    EPA has also promulgated water quality standards for the 
Great Lakes and their tributaries which take into account the 
effects of mercury on birds and mammals that consume 
contaminated fish. The Clean Water Act also requires States to 
assess their waters periodically to determine whether those 
water bodies exceed ambient water quality standards and, if 
they do exceed them, to establish total maximum daily loads for 
those waters. Total maximum daily loads are basically a budget 
which lays out who needs to do what, including regulatory 
requirements, in order to meet the ambient goal of the water 
quality standard.
    States have so far identified 1,097 water bodies where the 
levels of mercury exceed their water quality standards, and so 
far States have completed 144 TMDLs for these water bodies. EPA 
also has a research program that is primarily invested in the 
fate and transport as well as other areas to address science 
needs for mercury. We are funding that at the level of $5.5 
million per year.
    With that, I will end my statement. I would be glad to 
expand on any of these quick highlights as we turn to questions 
and to answer any questions you might have.
    [The prepared statement of Mr. Grubbs follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Thank you. Before we go to Captain Ragain, do 
you have an opening statement you would like to make, Mr. 
Cummings?
    Mr. Cummings. I do, Mr. Chairman, but why don't we go to 
the next witness.
    Mr. Burton. Captain Ragain.
    Captain Ragain. Mr. Chairman, Honorable Representatives, 
ladies and gentlemen, good afternoon. Thank you for inviting us 
to testify before the Subcommittee on Human Rights and 
Wellness. I am Captain James C. Ragain Jr., Dental Corps, U.S. 
Navy, Commanding Officer of the Naval Institute for Dental and 
Biomedical Research [NIDBR], located at the Naval Service 
Training Center, Great Lakes, IL. Accompanying me this 
afternoon are Commander John C. Kuehne, Dental Corps, head of 
the Bioenvironmental Sciences Department, and Dr. Mark E. 
Stone, program manager for the NIDBR Mercury Abatement Program.
    NIDBR's research related to the control of mercury 
emissions from dental amalgam began in 1991 as a collaboration 
with the American Dental Association involving the evaluation 
of commercial amalgam separators. NIDBR instituted a mercury 
management program to coordinate and direct the research 
efforts of a number of dental researchers and equipment 
specialists. This program made great strides in the design and 
installation of pretreatment systems at several Navy dental 
treatment facilities. NIDBR was then designated by Navy 
dentistry as the lead agent for development, evaluation and 
guidance regarding Navy wide installation of pretreatment 
systems to minimize the environmental impact of Navy dentistry.
    The tasking required that pretreatment systems be able to 
remove mercury in order to allow all Navy dental clinics to 
comply with local wastewater discharge standards. NIDBR was 
specifically tasked to assess current compliance of dental 
treatment facilities [DTFs], in meeting local discharge 
standards and to develop strategies to bring all DTFs in the 
Navy into compliance. This includes ships, field and mobile 
dental units.
    In fiscal year 2001, NIDBR began the implementation of a 
multiyear program to survey and install pretreatment systems in 
every Navy DTF worldwide. To date, pretreatment systems of 
various sizes have been successfully installed in 50 percent of 
all Navy dental clinics located within the continental United 
States. By the end of calendar year 2003, we expect to have 
completed the installation of mercury abatement systems in 95 
percent of the Navy's U.S. clinics. These systems meet local 
discharge limits with anywhere from 95 to greater than 99 
percent of total mercury removed from the wastewater.
    Previously completed wastewater characterization studies by 
NIDBR have enabled us to develop a pretreatment strategy that 
allows for the removal of mercury to extremely low levels, thus 
reducing mercury from grams per liter to micrograms per liter 
in the waste stream.
    NIDBR's strategy involves the phased treatment of the 
dental-unit wastewater stream. Phase 1 is the removal of 
amalgam particulate through filtration and/or settling. Removal 
of particulate greater than 10 microns removes up to 95 percent 
of the total mercury in the waste stream. However, a 
significant amount of mercury is located in the dissolved or 
soluble fraction and is high enough to violate some local 
discharge limits. In phase 2, the remaining dissolved mercury 
is driven to the ionic form by oxidation and removed by 
sorbents. This phased treatment program has proved very 
effective for both large and small dental treatment facilities. 
An additional benefit of the phased pretreatment strategy is 
the ability to deploy technology that can be scaled to meet 
variable local water treatment facilities' discharge limits.
    Navy dentistry's mercury abatement program is a proactive 
effort intended to keep the Navy in compliance with local and 
overseas environmental requirements, and the successful 
implementation of these pretreatment systems will remove a 
source of mercury contamination to the environment. Additional 
studies at NIDBR have attempted to measure the concentrations 
of various forms of mercury residing in the dental wastewater, 
including ionic, organic and elemental mercury bound to 
particulate.
    This is an important endeavor because different mercury 
species have different toxicity profiles and a meaningful 
assessment of mercury in dental wastewater must address the 
concentrations of all the different species present. 
Determining total mercury alone is not adequate to give a 
complete picture.
    One of the questions you asked in your invitation to us was 
information on whether mercury solids methylate in sewer 
systems. In 1967, Swedish researchers demonstrated that 
bacteria are capable of transforming inorganic mercury into 
methylmercury, a more toxic and more readily absorbed form of 
the element. Many microorganisms, including bacteria and fungi, 
have been shown to possess the ability to methylate mercury.
    NIDBR has been involved in the characterization of dental 
wastewater since 1993. We have measured total mercury and 
methylmercury levels in wastewater directly at the chair, from 
holding tanks and from sewers both upstream and downstream from 
dental treatment facilities. We found the percentage of 
methylmercury relative to total mercury to be a relatively 
small fraction. However, preliminary composite sampling of 
wastewater upstream and downstream from a large dental 
treatment facility showed a 12fold increase in total mercury 
leaving the dental clinic and a 3.6fold increase in 
methylmercury levels. One mile downstream from the clinic, the 
total mercury level had returned to the same as those upstream. 
However, the methylmercury level remains about 3.5fold higher 
than those upstream. The filter systems that we are installing 
in our dental clinics remove almost all of the total mercury 
prior to discharge into the waste stream.
    Results of NIDBR studies underscore the importance of 
limiting the release of mercury into wastewater streams as the 
potential exists for mercury to be transformed into more toxic 
species.
    That concludes my prepared remarks. We are ready for any 
questions you might have.
    [The prepared statement of Captain Ragain follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Thank you, Captain. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Chairman, Diane Watson, who is the ranking member on the 
committee, was not able to be here this afternoon because she 
is in her district. I just wanted to read her statement if that 
is OK with you, Mr. Chairman.
    Thank you, Mr. Chairman. The Human Rights and Wellness 
hearing today is very important for the American people. This 
hearing will provide more information about the effects of 
elemental mercury and its use in dental fillings. In previous 
hearings we have discussed different aspects about the last 
remaining use of mercury inside the human body, but the 
environmental effects of mercury are equally disturbing.
    Mercury is listed as the No. 1 environmental poison by the 
World Health Organization. The Environmental Protection Agency 
has listed mercury as No. 1 of the 19 most persistent and bio-
accumulative toxic metals. Last Thursday, October 2, 2003, 
Ballou Senior High School was shut down in Southeast 
Washington, DC, due to 250 milliliters, or approximately 450 
fillings worth of mercury. I understand the public concern over 
the mercury spill, but we should also be concerned with 
approximately one-half gram of the same hazardous material 
being placed in the mouths of our children and adults in each 
amalgam filling.
    In a recent report entitled ``Dentists the Menace,'' 
dentists were called the biggest mercury polluters in the 
United States. Consider these facts. Dentistry is one of the 
only unregulated major sources of mercury discharges to the 
environment. Dental fillings constitute the largest source of 
direct mercury pollution in wastewater. Dentistry is the fifth 
largest consumer of mercury in the United States. And dentists 
use toxic mercury in silver fillings which are made of 43 to 54 
percent mercury.
    Dentists improperly dispose of mercury dental fillings 
every day. Mercury dental fillings are put in the trash that 
eventually will be incinerated, releasing poisonous gases and 
vapors into the air. Properly cremated loved ones release the 
same mercury contaminants into the air through mercury 
fillings. Dentists also discard mercury dental fillings by 
putting them in landfills, contaminating the soil and 
surrounding water sources. Mercury dental fillings pose too 
much risk for not only the health of dental patients but 
environmental and agricultural safety.
    Mercury is constantly being discharged into our 
environment, polluting our water sources. The body tissue of 
fish easily absorbs mercury suspended in water. Ultimately we 
eat this toxic mercury. Pregnant women are constantly being 
warned not to eat shark, swordfish or mackerel due to their 
extremely high accumulation of mercury. If they are warned not 
to eat fish, why are they not constantly being warned to not 
use mercury dental fillings?
    That is the statement of Ms. Watson, Mr. Chairman. I thank 
you for allowing me to put that into the record.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. No problem. Thank you.
    First of all, I want to commend the Navy for its 
constructive actions that they have taken to reduce dental 
mercury in their facilities around the world. Captain, you 
didn't mention in your testimony why the Navy first got 
interested in mercury abatement. Wasn't there a particularly 
alarming and costly incident involving the naval dental clinic 
in the Virginia Beach-Hampton Roads area?
    Captain Ragain. Yes, sir, there was.
    Mr. Burton. Do you want to go into that in detail or do you 
want me just to read what happened?
    Captain Ragain. It is up to you, Mr. Chairman.
    Mr. Burton. Well, the answer is the Hampton Roads sewage 
treatment plant finally refused to accept the Navy's sewage 
because it contained too much mercury. The Navy had to dump 
their wastewater into 55-gallon drums and then have them hauled 
away by a hazardous materials company that charged $900 per 
barrel. Why did that happen?
    Captain Ragain. Why did it? I don't understand your 
question.
    Mr. Burton. Why would that sewage treatment plant not 
accept the refuse from your facility?
    Captain Ragain. I wouldn't know, sir.
    Mr. Burton. Well, they said it was because there was too 
much mercury going in there, isn't that correct?
    Captain Ragain. I haven't talked to that plant, sir. I 
don't know.
    Mr. Burton. Well, you do know that they wouldn't accept 
that, don't you?
    Captain Ragain. That was their statement, sir.
    Mr. Burton. Captain, come on now. You don't know about 
this? You don't know what happened?
    Captain Ragain. I know that we were required to put our 
dental wastewater in cans because the discharge limits exceeded 
the local PWC limits.
    Mr. Burton. And the reason for that was?
    Captain Ragain. Because of the discharge of the water. Not 
why they wouldn't accept the cans.
    Mr. Burton. What was in the water? It was mercury, wasn't 
it?
    Captain Ragain. The mercury had spiked, yes, sir.
    Mr. Burton. Yes. Now, the mercury is being removed because 
of the amalgam separators and 95 to 90 percent of the mercury 
is now being removed, is that right?
    Captain Ragain. Yes, sir.
    Mr. Burton. Let me ask you both a question. If mercury is 
unsafe before it is put into your teeth and it is unsafe 
afterwards because it has to be collected and handled very 
carefully, why is it safe in your mouth? How about you, Mr. 
Grubbs?
    Mr. Grubbs. To be honest, I am not sure I can answer that 
one either, sir. The jurisdiction for EPA deals with pollution 
into the environment from sewage treatment plants, into the 
air, and so forth. With regard to exposure to the body, my 
understanding is that is Food and Drug Administration where 
those decisions are made. So I have not looked at that specific 
question.
    Mr. Burton. The FDA. How about you, Captain?
    Captain Ragain. When it is in the mouth, it is bound into 
the amalgam and it is not released.
    Mr. Burton. Let's followup on that. We had a scientist 
here--we had scientists, more than one here, who said that they 
had tested amalgams in a glass of water and checked them and 
they were releasing mercury even though they were supposed to 
be inert in that filling. They had done several tests to show 
that was occurring. They also showed when heat was applied or 
cold was applied that vapors were emitted from the fillings 
that showed that the mercury was being released.
    When a filling is taken out and it is put into the sewage 
of the office, let's say a dentist flushes it down the drain 
like a lot of them have been known to do, why is that a danger 
if it is inert in the mouth? If it is hard in the mouth and it 
is safe because it has that other residue with it, you know, 
when they make the filling, why is it not safe when it leaves 
the mouth?
    Captain Ragain. Sir, I'm going to defer that question, if I 
may, to Commander Kuehne. He is a materials expert in the 
bioenvironmental area and he probably could have a better 
answer there that you are looking for.
    Mr. Burton. Sure.
    Commander Kuehne. Thank you, sir.
    First of all, I would say it is not really my decision to 
rule definitively on what is or isn't safe. The scientific 
panels that have met in the past to evaluate amalgam as a 
material have deemed it to be a safe and effective material.
    However, to answer your question, the real issue is that 
when the amalgam is in the waste stream or in the environment, 
for as long as it remains there, which is indefinite, it is 
subject to bacterial conversion, bacterial organisms in the 
environment that convert the source of mercury in the amalgam 
to methylmercury.
    Mr. Burton. You really believe that is how it happens? The 
bacteria in your mouth doesn't have any effect?
    Commander Kuehne. I don't know, sir. I wouldn't say that 
it's impossible. All I can say is that the scientific evidence 
to date that I am aware of have not shown any significant 
release of free mercury or methylmercury from fillings in the 
mouth.
    Mr. Burton. Have you heard of Dr. Boyd Haley?
    Commander Kuehne. No, sir.
    Mr. Burton. You haven't had any conversations with him? Dr. 
Haley testified before our committee, and Dr. Haley went into 
great detail. He is a biological scientist.
    Mr. Rowe. Yes, and he is Chair of the Department of 
Chemistry.
    Mr. Burton. He is the chairman of the Department of 
Chemistry down there at the University of Kentucky.
    He has done an enormous amount of research on this. He says 
there is absolutely no doubt, no doubt whatsoever that the 
mercury fillings in the mouth and afterwards does emit vapors 
that get into the blood stream, mercury vapors, and can cause 
neurological problems and that when you chew every once in a 
while you might chew a hard substance and it breaks off and 
gets into your system, it can also cause some damage. You 
wouldn't argue with that, though?
    Commander Kuehne. Sir, again, I wouldn't say that it is 
impossible. I'm just saying that all of the scientific evidence 
and the panels that have met in the past, NIH panels and other 
panels that have come together to weigh all the scientific 
evidence that is available, have so far concluded that there is 
no significant release of toxic mercury from fillings that are 
placed in the mouth.
    Mr. Burton. When I was a little boy, we used to find old 
thermometers, and we would break them, and we would do this 
with the mercury. You know what I'm talking about, when you 
were kids? I wonder why they don't do that anymore? Because we 
found out that the mercury was toxic, and it could really cause 
severe damage. In my district, we spilled a very small amount 
of it, and they evacuated two neighborhoods, had people come 
in, looked like they were from outer space to clean it up. That 
happened in this school here in Washington, DC. Yet we continue 
to put mercury in our mouths. Would you swallow a mercury 
amalgam? You would swallow it? You wouldn't worry about it?
    Commander Kuehne. Yes, sir. Honestly myself, because of 
what I know about the differences between the absorption of 
elemental mercury vapor through the lungs and solid amalgam 
absorption through the gut, it personally wouldn't bother me. I 
would much rather swallow a dental amalgam than to breathe in 
the same amount of mercury vapor. I would be very worried about 
breathing in the same amount.
    Mr. Burton. If you knew it was being emitted from your 
teeth? If you knew that vapor was being emitted----
    Commander Kuehne. Yes, sir. Again, I'm not trying to defend 
it. I'm not trying to say it is impossible. All I am trying to 
say is, from what I know of the scientific evidence to date--I 
have dental amalgams in my mouth. I am not worried about the 
emission of mercury. I do know that elemental mercury vapor is 
toxic and easily absorbed into the body. I do know that amalgam 
has the potential to methylate in the environment. So both of 
those issues I am concerned about, and we are taking action for 
it.
    Mr. Burton. I am going to yield to Mr. Cummings, but just 
let me tell you that there is a machine that my dentist used to 
show the amount of mercury vapor that was being emitted from 
the amalgams I had in my mouth. It has been pretty much proved 
that this machine is accurate. I don't know if you guys have 
any mercury fillings in your mouth, but we happen to have one 
of those machines over there if you would like to check it out 
before you leave. It might be a very intellectually stimulating 
experience for you.
    Captain Ragain. I've got five in my mouth.
    Mr. Burton. You have five in your mouth?
    Captain Ragain. Yes, sir.
    Mr. Burton. You might want to check that out before you 
leave. It might make you want to get them out of there.
    Mr. Cummings.
    Mr. Cummings. Just a few questions, Mr. Chairman.
    Commander Kuehne, you had said with regard to the amalgam 
and the mercury in the filling that you did not believe a 
significant amount of mercury was released. What do you 
consider not significant, or significant?
    Commander Kuehne. That is a good question. I guess that is 
what it comes down to, I think, because almost everything could 
have some trace mercury concentration if you could employ 
methods fine enough to detect it. I would say for myself as a 
standard compared to the amount I would get in a normal diet. 
In other words, I think that whatever mercury would be released 
from fillings in my mouth would be insignificant when you 
compared it to a normal diet. If I would try to exclude the 
same amount of mercury from my diet completely, I would 
probably have to eliminate most if not all of the things I ate. 
It is a naturally occurring element in the Earth's crust. It is 
present in many foods, not just fish.
    Mr. Cummings. A woman who is pregnant, is she more 
susceptible to harm from mercury?
    Commander Kuehne. Sir, with all due respect, I can 
understand why you would be asking us this, but really I think 
these are questions that the FDA and WHO and people like that 
have--it is in their purview to rule on those things. WHO and 
FDA, organizations like that.
    Mr. Cummings. I understand that. Just based upon your 
knowledge--and I understand and I am not trying to take you out 
of your realm, but I am just asking you a general question. You 
make decisions, you have to address these issues, and I am sure 
you have some general knowledge of what you believe. If you do, 
that is all I am asking you. I am not trying to put you in a 
corner or anything like that. So you do believe that a woman--
in other words, you would not like to see a woman who is 
pregnant absorbing mercury, swallowing it from her teeth or 
anything, I take it?
    Commander Kuehne. First of all, I would be concerned about, 
or I would advise a pregnant woman to exercise some caution, 
educate herself about the dangers of mercury consumption. I 
think the place to begin with that personally would not be with 
the fillings in her mouth if they are already there. I think 
the place to begin would be looking at the diet, fish 
consumption, to know where the fish comes from and the 
concentration of mercury that would be in the fish, water, the 
things that would be consumed on a regular basis daily. I would 
never try to argue that absolutely zero amount--there may be 
very small amounts of mercury that would be released from 
whatever fillings she would have in her mouth, but, again, I 
think that in terms of her total dietary consumption that would 
not be my major concern.
    Mr. Cummings. A filling--when a person--sometimes a doctor 
will tell you, a dentist will say, we've got to give you 
another filling. I am just wondering, is that--I mean, 
something has happened to cause the filling that you had not to 
be doing what it was doing before. There is some kind of 
problem.
    Captain Ragain. It depends on the clinical situation.
    Mr. Cummings. So I guess what I am getting at is that if 
there is--if something has happened to that filling, and that 
is assuming there is some still there, would you assume that 
there is a release of mercury that is higher than the 
insignificant or amount that you just talked about? Are you 
following what I am saying?
    Commander Kuehne. Yes, sir.
    Mr. Cummings. I mean, it happens all the time. People go to 
the dentist. The dentist says, look, we've got to refill this. 
I was just curious.
    Commander Kuehne. Yes, sir. Again, we're getting into an 
area that may be as much opinion or judgment call as anything 
else, but, in my own judgment, it is not actually the amount of 
mercury that would be released during normal chewing that would 
be a concern. But when you either place or remove the mercury, 
the patient exposure to mercury at that time would be higher 
than once it is placed and set. So in the placement and the 
removal process that is when proper practices should be 
followed in order to minimize that risk exposure to the patient 
and the dentist, their staff, as well as to the environment.
    Dentists do and should follow certain procedures that we, 
for instance, would use in a rubber dam which protects the 
patient but provides a barrier between the patient and the 
removal using high-speed suction. If the proper filters to 
remove mercury are attached to that suction, you can do that 
procedure safely or you can do that procedure where it 
represents a larger risk to the patient and the environment.
    Mr. Cummings. Finally, Mr. Chairman, from an environmental 
standpoint, what is the safest way to get rid of, I guess it 
would be, mercury waste? What is the safest way to do that? In 
other words, so that you minimize any kind of harm to the 
environment, what is the ideal way to do that?
    Commander Kuehne. First of all, to remove all of it from 
the wastewater before--again in my opinion, it would be to 
first of all remove all of it from the wastewater before it is 
sent to the treatment facility plant, to collect it and dry it 
so that it is in a dry amalgam form. The dissolved portion of 
the mercury, which would be ionic mercury, that would be 
dissolved in water. We use a process that binds that ionic 
mercury to a resin, and it is chemically bound at that point, 
and at that point it won't be released from that chemical bond.
    Then to collect that in those states, the dry particulate 
amalgam and the chemical resin, all the forms of mercury that 
you have used to remove it and to send that to a licensed 
recycler or a company that is licensed and knows how to reclaim 
that mercury or dispose of it properly.
    Mr. Cummings. So a small amount of mercury can do some 
serious damage? I mean, the chairman just talked about--we had 
the school to close and then the chairman talked about a small 
amount--were you talking about in your district?
    Mr. Burton. Yes.
    Mr. Cummings. It can do a lot. I assume this is something 
that sends off a lot of red lights. I guess that is why we are 
here.
    Commander Kuehne. The risk, that is really a difficult 
question to answer. When you say a small amount and a lot of 
damage, those are terms that are difficult to quantify from a 
scientific point of view. And it really represents what 
somebody would consider small, what----
    Mr. Cummings. I will let the chairman--because he knows 
what happened in his district or wherever. I guess what I am 
trying to do is make sure I get a real clear picture of exactly 
how much of this substance would cause any reasonable health 
official or provider to be alarmed.
    Commander Kuehne. I wouldn't want to breathe mercury vapor 
on a regular basis over a long period of time, because mercury 
vapor is well absorbed across the lungs, it accumulates in the 
body and it has long-term health effects. So I certainly--a 
small amount of mercury vapor like that, what was released in 
the school, especially if it is inhaled chronically over a long 
period of time certainly represents a health risk. A consistent 
ingestion of methylmercury from fish or organic tissue, once it 
is taken up in the food chain, especially by more susceptible 
people like pregnant women, again over a long period of time, 
certainly represents a definite health risk. But in both of 
those cases you have to consider the form that the mercury is 
in, whether it is in elemental mercury, liquid, vapor state, 
whether it is amalgam, whether it is methylmercury in the 
organic tissue of fish. Each one of those things represents a 
different situation. The way it is ingested represents--the 
time of exposure, whether it is a one-time exposure.
    It is like x-rays. Being out in the sun for 5 minutes 
represents a different risk than being out in the sun for 3 
hours. It depends on the angle of the sun.
    To say absolutely mercury in every form, in every 
condition, in every concentration is a huge risk, no, sir, I 
couldn't go that far. But it definitely is a health risk.
    Captain Ragain. It is like chlorine, chlorine gas. It is 
very toxic, but we have all had sodium chloride today in salt.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Burton. Mercury is supposedly one of the most toxic if 
not the most toxic substances around, isn't it? Is that not 
correct, when it is ingested? Incidentally, where did you get 
all this information? Commander, where did you get all this 
information?
    Commander Kuehne. All the information about mercury?
    Mr. Burton. About mercury. Do you have a degree in that? 
Have you studied it? Are you a chemist?
    Commander Kuehne. Yes, sir. I'm a dentist. We studied it in 
dental school. I have a master's degree in dental materials and 
being involved with research for a number of years. I have read 
research papers, and I guess that is where I get my information 
from.
    Mr. Burton. You have never read any research papers from 
the University of Kentucky and the head of their chemistry 
department down there that has worked on this?
    Mr. Stone. I think most of the literature that we're 
familiar with is related to the environmental exposure to it, 
to the mercury. I think a lot of the issues you are talking 
about are exposure to humans, related to human health effects. 
We're sort of on the other side of that with the wastewater 
issue.
    Mr. Burton. Well, the fact of the matter is the wastewater 
treatment people of this country say that the amalgams getting 
into the wastewater treatment system has caused an awful lot of 
problems, correct?
    Commander Kuehne. Yes.
    Mr. Burton. And it wouldn't be in the wastewater treatment 
system if we didn't have mercury in our mouths in the first 
place, would it? It wouldn't be getting in there from the 
amalgams if it wasn't in our mouths, isn't that correct?
    Commander Kuehne. Yes, sir.
    Mr. Burton. What I can't understand is if there is a risk 
to our health, either before it is in our mouths, after it is 
in our mouths, while it is in our mouths, we know that once it 
gets into the food chain it is a real problem and there is an 
increasing number of items in our food chain, you mentioned 
fish, that are becoming a real problem as far as human beings 
consuming them.
    One of the ways they are getting that is from the water 
that goes through the wastewater treatment system into our 
lakes and our streams around this country. It seems to me that 
we would want to get that out of there, especially if there is 
an alternative substance that can be used to fill teeth. Why 
would you use something that you knew was toxic if you knew 
there was something else? Because it is less expensive is the 
answer. But the fact of the matter is there are ways to deal 
with this without putting mercury in people's teeth.
    The other thing that is very interesting is when they put 
mercury fillings in your mouth, they aren't inert while they 
are putting them in your mouth. They mix them up. The person 
who is mixing them up has some exposure, I would imagine, from 
mixing them on a regular basis. Then they put it into some kind 
of a syringe-type thing and they jam it down into your tooth, 
into the cavity that they have exposed by drilling. And when 
they jam it down into your tooth, I know that parts of it fall 
down into your mouth, parts of it, and it is not yet inert, it 
is still liquid, because they say, oh, you've got to wait about 
5 minutes before we take this brace off that holds it in place. 
And that inert material, that material that is not yet inert, 
is ingested into your body, because I have swallowed part of it 
because I couldn't get it all out when I rinsed after they put 
the filling in. Are you telling me that none of that is 
dangerous? It is not yet inert. It is still in the syringe. He 
puts it in your mouth. Are you saying there is no danger there?
    Commander Kuehne. No, sir. I certainly don't say there is 
no danger. I think--it is just--we recognize--I think what we 
are here to agree to is that we recognize the long-term 
consequences of putting amalgam waste into the environment and 
that is why the Navy has taken steps to stop that. Beyond that, 
what constitutes an acceptable risk----
    Mr. Burton. So there is a risk.
    Commander Kuehne. There is a risk in every activity that I 
can think of. And certainly there is a risk of--there are many 
risks associated with the practice of dentistry.
    Mr. Burton. You don't need to go any further. The fact of 
the matter is there is a risk, and you think it is an 
acceptable risk to put an amalgam in people's mouths. There is 
a divergence of opinion on that subject. We have had scientists 
who say they have tested it very thoroughly over many years, 
and there are vapors that escape into people's mouths. There 
are also chips and so forth that fall into the body. If there 
is a biological thing that takes place, you said that there is 
some bacteria that might eat away at one of these amalgams and 
cause a release of the mercury. It could happen in our bodies 
as well. But the fact of the matter is there is a risk, and I 
do appreciate that.
    Do any of you have any final comments you would like to 
make?
    Captain Ragain. No, sir.
    Mr. Grubbs. No, sir.
    Mr. Burton. Thank you very much. We appreciate it.
    Our next panel is Dr. Frederick Eichmiller, director, 
American Dental Association Health Foundation; Mr. Norman 
LeBlanc, chief, Technical Services at the Hampton Roads 
Sanitation District; Mr. Peter Berglund, principal engineer at 
the Metropolitan Council of Environmental Services; and Mr. 
David Galvin, project manager, Hazardous Waste Management 
Program at the King County Department of Natural Resources.
    Would you all please stand?
    I appreciate you sticking around to hear what they have to 
say.
    [Witnesses sworn.]
    Mr. Burton. Since there are a large number of you and it is 
getting a little late and I apologize for that, if we could 
keep our comments to around 5 minutes, I would really 
appreciate it. We will put the rest of your statements in the 
record.
    Dr. Eichmiller.

   STATEMENTS OF DR. FREDRICK EICHMILLER, DIRECTOR, AMERICAN 
  DENTAL ASSOCIATION HEALTH FOUNDATION, PAFFENBARGER RESEARCH 
CENTER, NATIONAL BUREAU OF STANDARDS & TECHNOLOGY, ACCOMPANIED 
 BY JEROME BOWMAN, ADA STAFF ATTORNEY; NORMAN LEBLANC, CHIEF, 
 TECHNICAL SERVICES, HAMPTON ROADS SANITATION DISTRICT; PETER 
   BERGLUND, PE, PRINCIPAL ENGINEER, METROPOLITAN COUNCIL OF 
  ENVIRONMENTAL SERVICES, INDUSTRIAL WASTE SECTION; AND DAVID 
 GALVIN, PROJECT MANAGER, HAZARDOUS WASTE MANAGEMENT PROGRAM, 
 KING COUNTY DEPARTMENT OF NATURAL RESOURCES AND PARKS, WATER 
                  AND LAND RESOURCES DIVISION

    Dr. Eichmiller. Mr. Chairman, members of the committee, my 
name is Fred Eichmiller. I am a dentist and director of the 
Paffenbarger Research Center, one of the world's premier dental 
research facilities, an affiliate of the ADA Health Foundation 
in Gaithersburg, MD. Scientists at the Paffenbarger Center 
conduct basic and applied studies to improve the science and 
art of dentistry and benefit the health of the American public.
    With me today is Mr. Jerome Bowman, an ADA staff attorney 
who has been involved in the Association's efforts to forge a 
partnership with the EPA to further minimize the environmental 
impact of waste dental amalgam.
    I speak today on behalf of the ADA's members, 147,000 
individual dentists and their families who live in the same 
communities and consume the same water as everyone else.
    The ADA bases its policy positions on the best available 
scientific evidence, so in crafting its best management 
practices and a national advocacy plan to reduce amalgam waste 
discharge we sought first to expand and improve the scientific 
data available on the amount of waste amalgam that dental 
offices actually discharge and what happens to any amalgam that 
is discharged. To that end, we commissioned ENVIRON to conduct 
a scientific assessment. The author of that assessment, Mr. Jay 
Vandeven, is with us here today and available to answer any 
questions or any additional questions that Mr. Bowman and I 
cannot answer.
    I will note that because mercury in dental amalgam is bound 
as a stable ally with other metals, the studies thus far 
indicate that very little of it dissolves to become 
bioavailable. In other words, even when amalgam enters the 
wastewater, mercury from amalgam is unlikely to enter the food 
chain.
    Despite this, we asked that the ENVIRON assessment ignore 
that premise. The data it reports and the conclusions it 
reaches reflect a worst-case assumption that all of the mercury 
in any waste amalgam could eventually become bioavailable.
    The key findings of that study include the contribution of 
mercury in surface waters and sludge that are attributed to 
dental offices is far worse than those from other sources. The 
chairside traps and vacuum pump filters capture approximately 
77 percent of the amalgam discharged in wastewater by dental 
offices. Amalgam separators when used in conjunction with best 
management practices can capture up to 95 percent of the 
amalgam not captured by the traps and filters. However, because 
public water treatment facilities capture 95 percent or more of 
that same material, the use of separators ultimately would have 
little impact on the level of mercury in the surface water or 
fish.
    The ENVIRON report underwent prepublication review by 
individuals from AMSA and the EPA.
    Let me make it clear that the ADA does not see the ENVIRON 
report as justification for inaction on amalgam waste. Rather, 
the Association is using the report's findings to guide the 
process of enhancing our longstanding commitment to foster an 
environmentally sound dental practice.
    Based on the ENVIRON findings, the Association this year 
published best management practices for amalgam waste to 
provide its members with comprehensive, easy-to-follow 
recommendations for managing the waste and finding a recycler. 
Our goal is 100 percent recycling of amalgam waste captured by 
dental offices.
    The ADA recognizes amalgam separators as a potentially 
valuable adjunct to a dental office's waste management 
procedures in situations where environmental concerns or local 
law warrant them. However, the Association believes that the 
decision about whether to use separators should be made on a 
case-by-case basis in response to local needs and within the 
context of comprehensive best management practices. In fact, 
many State dental associations have reached or are currently 
working on agreements with their State environmental 
authorities, and many of these agreements involve the voluntary 
use of amalgam separators.
    The ADA has and will continue to publish and otherwise 
disseminate useful information for dentists who want or need to 
install separators, including seminars at major dental meetings 
and articles in the peer-reviewed Journal of the American 
Dental Association, which is sent to all of our members.
    Finally, I will note that the ADA is actively engaged in 
discussions with the EPA with the aim of establishing a 
national partnership to help State and local authorities 
develop sensible policies regarding dental amalgam waste. These 
could include recycling, collection programs, best management 
practices and other common-sense measures.
    Mr. Chairman, that concludes my statement, but I 
respectfully request just a moment more of your time to read 
the text of the resolutions that are going before our House of 
Delegates and will be considered in 2 weeks at that meeting. I 
believe these actions give good testimony to the ADA's 
commitment to environmentally sound dental practice.
    The first resolution is, resolved that the Association 
strongly encourages dentists to adhere to best management 
practice and supports other voluntary efforts by dentists to 
reduce amalgam discharges in dental office wastewater.
    Be it further resolved that the Association encourages 
constituent and component societies to enter into collaborative 
arrangements with regional, State or local wastewater 
authorities to address their concerns about amalgam in dental 
office wastewater.
    Be it further resolved that the appropriate agencies of the 
Association continue to disseminate information to the 
constituent and component societies to help them address 
concerns of regional, State or local wastewater authorities 
about amalgam in dental office wastewater.
    Be it further resolved that the appropriate agencies of the 
Association continue to investigate products and services that 
will help dentists effectively reduce amalgam in dental office 
wastewater and keep the profession advised.
    Be it further resolved that the Association include in its 
advocacy messages the importance of basing environmental 
regulations or guidances affecting dental offices on sound 
science.
    And be it further resolved that the Association continue to 
identify and urge the Environmental Protection Agency to fund 
studies that accurately and appropriately identify whether 
amalgam wastewater discharge affects the environment.
    Thank you for allowing us to appear before this panel. We 
will be glad to answer your questions.
    Mr. Burton. That resolution you are talking about is not 
mandatory, though, is it? It is voluntary?
    Dr. Eichmiller. Yes, it is voluntary.
    Mr. Burton. Thank you.
    [The prepared statement of Dr. Eichmiller follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Mr. Berglund.
    Mr. Berglund. Thank you, Mr. Chair.
    My name is Peter Berglund. I'm with Metropolitan Council of 
POTW in St. Paul, MN, which in layman's terms I like to call it 
the sewer board.
    We have completed two major research projects on dental 
clinics' loadings to sanitary sewers and the effectiveness of 
amalgam separators used to treat the clinic wastewater. The 
good news is that our loading estimates agree well with the 
ADA's ENVIRON report. We measured 234 milligrams of mercury per 
dentist per operating day and we also measured a 29 to 44 
percent reduction in mercury loads at two of our treatment 
plants while amalgam separators were in place.
    There is more good news. These reductions also agree well 
with the ADA's ENVIRON report. The ENVIRON report had showed 
dental contributions of approximately 50 percent to wastewater 
treatment plants. The bad news is that I had to handle this 
waste during my study.
    We also studied and tested the separators in actual clinic 
settings. The ADA tested separators in a laboratory setting, 
so-called bench-top testing.
    And there is more good news. Our results agree well with 
the ADA's testing of the separators. So both projects show that 
the separators perform well at removing amalgam from the 
wastewater.
    Given all of this work which--I should mention our research 
projects were done in partnership with the Minnesota Dental 
Association. They helped us enormously on studying the loadings 
and studying the amalgam separators, so we continued that 
partnership on what we have called a voluntary dental office 
amalgam separator program to promote the installation of 
separators that remove 99 percent of the amalgam present in the 
wastewater. And we--in fact, we have--the results were so good 
in ADA's testing on the separators that we set the bar higher 
than the normal test criteria. We call for 99 percent removal 
of the amalgam in the wastewater where the common criteria is 
95 percent.
    We launched our program for the promotion of separator 
installation in January 2003, and we already have two-thirds of 
our dentists committed to installing separators. These are 
signed commitments sent in by the dentists. Two-thirds have 
sent that in. And many countries in the world call for 
separators, so this is not new.
    I should mention that there've been reductions in mercury 
levels at wastewater treatment plants in, Toronto, Canada, and 
Wichita, KS, and the subcommittee may wish to get more 
information from those two cities.
    Separators are effective at reducing the amount of amalgam 
discharged to treatment plants. The use of the separators in 
our area will drastically cut back the amount of mercury 
released via the burning of our sludge. And then for those 
treatment plants that may land apply, the sludge separators 
will obviously help reduce the amount of mercury present in 
that land-applied sludge. Capturing amalgam at a dental office 
will maximize the recycling of the mercury and the silver 
present in the amalgam. If these metals end up in a wastewater 
treatment plant sludge, they will not be recovered or reused.
    One other little comment, the ADA environmental report had 
mentioned the possibility of dental clinic wastewater being 
discharged to septic tanks. We found in our early survey work 
that, yes, some dental waste does go into septic tanks, which 
is not allowed in Minnesota. The septic tank--septage from the 
septic tanks may be hauled back to the wastewater treatment 
plant, adding to the treatment plants' load, or it may be land 
applied. That concludes my comment.
    Thank you.
    Mr. Burton. Thank you Mr. Berglund.
    [The prepared statement of Mr. Berglund follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Mr. LeBlanc.
    Mr. LeBlanc. Good afternoon, Chairman Burton, members of 
the subcommittee. My name is Norm LeBlanc. I am chief of 
Technical Services for the Hampton Roads Sanitation District in 
Virginia Beach, VA, and Chair of the Association of 
Metropolitan Sewage Agencies [AMSA's], Water Quality Committee. 
AMSA represents the interests of nearly 300 of the Nation's 
wastewater treatment agencies, also known as publicly owned 
treatment works [POTWs].
    AMSA members serve the majority of the sewer population of 
the United States, and I would like to thank you for the 
opportunity to present AMSA's position here at the subcommittee 
this afternoon.
    Mr. Chairman, mercury is a multimedia problem that AMSA 
believes demands a multimedia, multifaceted solution. Only a 
coordinated effort involving all levels of government, Federal, 
State and local, will be able to address the mercury problem as 
a whole and be able to ensure that the resources being applied 
to control mercury across the Nation have a real impact on 
improving the environment and public health. AMSA, therefore, 
continues to support legislation that would create a national 
task force or some other type of interagency working group to 
evaluate the issues surrounding mercury in the environment and 
coordinating efforts to control it.
    With that said, AMSA strongly believes that each wastewater 
treatment agency and the community they serve should have 
ultimate control over the approach used to reduce mercury 
discharges from dental offices. I hope my remarks today will 
provide you with added insight into what the Nation's POTWs are 
already doing to address the issue. The U.S. EPA's 1997 report 
to Congress on mercury demonstrated that when compared to all 
of the sources of mercury released to the environment, 
wastewater treatment facilities are de minimis sources, or 
minor sources. Despite their de minimis contributions, 
wastewater treatment agencies continue to receive stringent 
numeric limits for mercury in their wastewater discharge 
permits, and many are experiencing difficulties in complying 
with these new limits.
    I want to be clear that POTWs want to do their part in 
reducing mercury releases to the environment, but it is 
important to recognize that wastewater treatment plants are not 
designed to remove toxics like mercury. In fact, the Clean 
Water Act, in requiring us to implement pretreatment programs, 
recognizes that it's not only good public policy, but also good 
engineering practice to remove toxins at the source and not at 
the wastewater treatment plant.
    A well-run pretreatment program is a POTW's first and, 
primarily, its only line of defense against toxic discharges; 
and it's critical for reducing mercury concentrations in 
wastewater discharge to the environment. Although residential 
sources of mercury, such as human waste and household products, 
are significant, POTWs have absolutely no authority to control 
these sources.
    Dental office mercury, which makes up about 40 percent of 
the mercury coming into the wastewater treatment plant, 
according to a March 2002 AMSA study and a recent ADA report, 
is controllable. Consequently, dental offices will almost 
always be a component of pretreatment efforts to control 
mercury in order to meet permit limits.
    Pretreatment programs can approach the issue of dental 
office mercury control in many ways, and AMSA believes that 
each community will choose the approach that works best for it. 
While some communities may have chosen the approach of issuing 
voluntary best-management practices that dental offices are 
asked to implement, other communities are requiring dental 
offices to install equipment such as amalgam separators to 
remove the mercury contained in amalgam fillings before it has 
a chance to enter the sewer system.
    There are success stories for each type of approach where 
reductions have been made in the amount of mercury being 
discharged to the wastewater treatment plant. In most 
communities, it's too early to tell whether or not long-term 
implementation of these programs will achieve the low levels of 
mercury necessary to meet increasingly stringent permit limits, 
but preliminary indications are that they will not.
    More work is needed to evaluate the options available for 
controlling the amount of mercury entering POTWs, and AMSA has 
recently begun a new international study to evaluate the 
effectiveness of amalgam separators at reducing mercury load 
from dental offices. This project, however, will not be 
completed until 2005.
    AMSA's 2002 study on the effectiveness of pollution 
prevention in our source control by reducing mercury discharged 
to wastewater treatment plants does suggest that pollution 
prevention efforts alone, without the use of amalgam 
separators, for example, will not enable POTWs to meet 
stringent permit limits.
    AMSA had recently had the opportunity to peer review the 
ADA assessment on the quantity of mercury nationwide that finds 
its way into the environment from dental offices. While a 
review on the final report is still ongoing, many of AMSA's 
were addressed in the final document, nevertheless some broader 
issues remain that we feel the report could have addressed 
better, and AMSA will be providing additional comments to the 
ADA on those issues.
    The Nation's wastewater treatment agencies continue to do 
their best to minimize the discharge of mercury to their plants 
and, subsequently, to the environment from all potential 
controllable sources, including dental offices. It is important 
that we have the ability to control all commercial industrial 
sources of mercury if we are to have any chance of meeting 
current and future requirements. However, we do not want to 
mislead the subcommittee into believing that controlling dental 
offices alone will result in attainment of Clean Water Act 
requirements at all POTWs.
    AMSA looks forward to working with you and your colleagues, 
as well as the national and State dental associations on 
mercury issues, and appreciates the opportunity to provide our 
expertise on mercury to the subcommittee. And I'll be happy to 
answer any questions.
    Mr. Burton. Thank you.
    [The prepared statement of Mr. LeBlanc follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Mr. Galvin.
    Mr. Galvin. Chairman Burton, my name is David Galvin. I'm a 
program manager with King County's Department of Natural 
Resources and Parks based in Seattle, WA.
    King County operates the major wastewater treatment system 
for the Metro Seattle area, including two large treatment 
plants with total flows of about 200 million gallons per day. 
We discharge treated effluent into Puget Sound, a sensitive 
marine waterway.
    One hundred percent of the residual solids from our 
treatment plants, known as biosolids, is reused beneficially in 
wheat and hop fields in eastern Washington and forestlands in 
the Cascade Mountains and in the composted product available 
for landscaping. We control sources of contaminants into our 
system by means of a major industrial pretreatment program and 
extensive work with small businesses and households.
    Toxic metals, including mercury, don't go away or get 
magically treated in wastewater treatment plants. Rather, they 
either settle out in the solids or are discharged in the water 
effluent. Most mercury that enters our system ends up in our 
biosolids. Even though our biosolids currently meet Federal and 
State regulations for mercury, our concerns for the future 
marketability of these solids drives our efforts to 
continuously make them cleaner. But potential for more 
stringent mercury limits in the future is also a concern for 
us.
    Under an agreement with the Seattle-King County Dental 
Society, we conducted an extensive collaborative program from 
1995 through 2000 to promote voluntary compliance of the dental 
offices in our area. We encouraged purchasing an installation 
of amalgam separator units, which research showed would allow 
dentists to meet King County's local mercury limit. The results 
after 6 years of this collaborative voluntary approach were 
that 24 dental offices, out of approximately 900, installed 
amalgam separators.
    In 2001, King County in consultation with the local dental 
society decided that the voluntary program had failed and 
notified local dentists that they would be required to meet our 
local discharge limit. We gave them the choice of installing 
separators or applying for a permit and proving that they can 
meet our limits without a separator.
    We gave them 2 years to meet compliance, until July 1, 
2003. We provided extensive outreach to these dental offices, 
including technical assistance, via visits from our public 
health staff to every dental office in the county. We provided 
monetary incentives via vouchers reimbursed at 50 percent of 
the costs up to $500. We worked closely with the local dental 
society as they held trade fairs and technical workshops.
    Local dentists did not fight this new requirement, but 
rather, sought practical information about purchasing 
separators, and they got on with the task. Results in the 2 
years since the requirement was announced are that 
approximately 750 additional dental offices, that is, more than 
80 percent, have installed amalgam separator units, with the 
remaining offices quickly following suit during this last 
quarter.
    In conclusion, we believe that mercury is best controlled 
at the dental office, not at the wastewater treatment plant. 
Control at the source is the best way to manage such toxic 
metals. A voluntary program did not result in significant 
change in King County. Once separators were mandated, 
compliance happened quickly, dramatically and with little 
resistance.
    Amalgam separator units are effective at removing at least 
95 percent of the mercury. They are readily available, low 
tech, reasonably priced and easily installed and maintained.
    The attached graph that I included with my testimony shows 
the results of our work, both in the voluntary phase and once 
we made it a requirement.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    Mr. Burton. Thank you, Mr. Galvin.
    [The prepared statement of Mr. Galvin follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Dr. Eichmiller, you read that resolution that 
you hope will be adopted at the ADA meeting, and it was 
voluntary. Did you just get those figures that he cited from 
the State of Washington?
    Dr. Eichmiller. Yes, I did.
    Mr. Burton. Twenty-four out of 900-some dentists complied 
after 6 years?
    Dr. Eichmiller. That's correct, sir.
    Mr. Burton. What makes you think that a voluntary 
resolution is going to bear fruit?
    Dr. Eichmiller. Well, I should also say that where 
separators are mandated, such as this, we have--and I think it 
was a good example--we have worked directly with the regulator 
to try to disseminate the information and to try to implement 
that. So we definitely want to facilitate the use of those 
separators when they are mandated on that local level.
    What we're opposing is a mandate on a national scale.
    Mr. Burton. Why?
    Dr. Eichmiller. One is that there really is--and I think 
from the EPA's testimony, too, they pointed out that there 
wasn't a one-size-fits-all. The regulatory process here is one 
that is done on a local and regional level, and what we found 
to be most effective is when we work with those local and 
regional regulators to come up with programs that perhaps will 
include separators, but also include all the best management 
practices and all the education and outreach that have to go 
with it. And that, I think, attests to the success they had in 
the second round. We have also seen that in other areas where 
we have used this approach.
    Mr. Burton. Mr. LeBlanc, you said that the safety 
approaches that are being used by dentists, I guess on a 
voluntary basis now, have not or you don't believe will 
appreciably change the amount of mercury that is going into the 
wastewater treatment plants.
    Mr. LeBlanc. I'm sorry. I think you misunderstood what I 
said.
    Mr. Burton. Well, you said 40 percent of the----
    Mr. LeBlanc. I said dentists contributed about 40 percent 
of the total load of mercury to the POTWs. There are success 
stories, I think, out there that deal with voluntary programs; 
and there are stories, there are areas where mandatory 
requirements are necessary.
    The need to control mercury and to what level it needs to 
be controlled is somewhat a function of the discharge 
situation, the area of the country, the relative sources of 
where you are in terms of meeting your regulatory requirements.
    Mr. Burton. But you continued to have substantial amounts 
of mercury in the wastewater treatments plants in your area?
    Mr. LeBlanc. We have a voluntary program; we have seen 
reductions in our area, in the Hampton Roads Sanitation 
District area. And we do not mandate it as a requirement. We 
currently meet all of our, exceed all of our regulatory--
``exceed'' is a bad word; we better our requirements, our 
regulatory requirements, without mandating amalgam separators 
with the exception of the naval facility that you talked about 
earlier.
    Mr. Burton. The problem that they had down there with the 
inordinate amount of mercury coming into the sewage treatment 
plant from that facility down there, that dental facility where 
you had to put them in 90-gallon drums and haul them away, you 
don't have that problem any longer?
    Mr. LeBlanc. Yes, we do.
    Mr. Burton. Oh, you do? Why?
    Mr. LeBlanc. Well, first of all, let me put that in 
perspective a little bit.
    That is a unique situation where we have a relatively small 
treatment facility that is designed to treat a population of 
about 100,000 people, 18 million gallons a day. And it handles 
the naval operations base, Norfolk, the world's largest naval 
facility which houses, I understand, if not the largest, one of 
the largest dental clinics in the United States. It has the 
equivalent of 100 dentists' offices in--for a city the size of 
100,000 people, which is a lot of dentists for a fairly small 
area.
    A local limit was established at that plant to protect the 
biosolids for land application. Even though we incinerate 
that--biosolids at that plant, our policy at Hampton Roads 
Sanitation District is to have quality of our biosolids 
sufficient to allow us to use all options to handle our 
biosolids. So we set a fairly stringent limit to get the 
mercury in the biosolids at that plant down.
    The Navy had a great deal of difficulty meeting that local 
limit. And while it's improved and they've tried numerous 
technologies over the years and have gotten better, they still 
cannot consistently meet the limit for that facility because it 
is fairly--it is very stringent. It's probably one of the most 
stringent in the Nation. And they are currently still barreling 
it up right now.
    Mr. Burton. Mr. Galvin, based upon your experience in the 
State of Washington, do you think that any part of the country 
would have better results on a voluntary program of having 
dentists comply?
    Mr. Galvin. I haven't had experience working with dentists 
from other parts of the country. The dentists that we've worked 
with in the Seattle-King County area are professionals, and 
they've been fine to work with. Our experience has been, even 
after years of a very collaborative process working with their 
dental society and a lot of site visits, that proof of the 
actual number of separators installed was still only about--
less than 3 percent of the total number of dental offices in 
our system. And once we said that isn't working, we need to 
make this a requirement, then the compliance has been very 
good.
    Mr. Burton. Well, if we didn't have mercury amalgams in our 
teeth, you wouldn't have that problem with having to haul away, 
in 98 gallon drums, that sludge, would you?
    Mr. Galvin. You're correct.
    Mr. Burton. So the mercury amalgams in those people's teeth 
that are being put in the trash and the sewage treatment plant 
is a problem. And if it wasn't there, it wouldn't be a problem. 
And the thing that everybody keeps defending is that in our 
mouths it's safe.
    You know, I was always taught that if you're going to err, 
you err on the side of caution. You don't continue to say, 
well, you know, there's only a 5 percent chance that you're 
going to die from this, or a 10 percent chance. If there's a 
possibility of making it 100 percent safe, why would you keep 
people in the situation where there's a 10 percent or 20 
percent or 5 percent chance of having neurological problems 
from the substance that you're putting into their bodies.
    We see mercury in not only amalgams; we see it in vaccines 
in the form of thimerosal, which is a preservative which has 
never been tested, that's going into our children's bodies and 
because the entire food chain that you're talking about and the 
amount of mercury that's going into our streams not only from 
amalgams, but from coal-fired generators and electrical plants 
and so forth, we've got a serious problem.
    We've gone from 1 in 10,000 children that are autistic in 
this country to 1 in 150. Now, something's causing that. It's 
not something that's just happened. They say, well, maybe it's 
because we haven't been keeping accurate records in the past. 
Well, let's say that was 1 in 5,000 before, or 1 in 2,000; now 
it's 1 in 150. And we have senior citizens that more and more 
are getting Alzheimer's disease. And the scientists that have 
been before our committee say that one of the contributing 
factors of Alzheimer's and autism is the amount of mercury 
that's being ingested into people's bodies, either through 
needles or through amalgams or other things. And I just can't 
understand why everybody continues to defend this substance 
saying, you know, it's something that's absolutely essential to 
be used in the art of dentistry.
    I mean, I know that it is more expensive to use other 
substances. But if they were used in larger amounts, perhaps 
the cost would come down. And in any event, it seems to me that 
we ought to try to err on the side of safety, and we seem to be 
hell-bent for leather not to do that.
    Are there any other questions that I need to ask this 
panel? Yes.
    There was an article that was put out. It says, ``U.S. 
Congressional Hearing on Dental Mercury Leaked Document Shows 
ADA Undercuts Pollution Exposure Reduction,'' say advocates. 
And I'd like to read you a little bit of this and then you can 
make a comment, Dr. Eichmiller.
    It says, ``As the American Dental Association prepares to 
testify before a U.S. congressional committee today on dental 
mercury, advocates released a confidential document showing the 
association's continuing intent to undermine efforts to reduce 
dental mercury pollution and human exposure from mercury 
fillings.''
    ``It's like pulling teeth to get the ADA to support efforts 
to reduce mercury pollution and unnecessary use even though 
dentists are the No. 1 contributor of mercury to the Nation's 
wastewater and still one of the largest mercury users in the 
U.S. today,'' said Michael Bender, Director of the Mercury 
Policy Project.
    ``Meanwhile, the latest Centers of Disease Control data 
indicate that 8 percent of U.S. women of child-bearing age have 
mercury levels so high that their developing babies are at risk 
of neurological damage.''
    ADA has submitted a confidential document to EPA that, in 
essence, argues that reducing dental mercury pollution through 
installation of amalgam separators, which can capture between 
95 to 99 percent of the dental mercury particles is not cost 
effective or necessary. In the document, ADA urges EPA to issue 
guidance practically devoid of amalgam separators that would 
recommend, ``only voluntary best-management practice,'' unless 
the environmental conditions or State law mercury require 
mercury reductions.
    Is that true?
    Dr. Eichmiller. I can speak probably to the, one of the 
first points that was made there.
    Mr. Burton. Well, before you go to the first point, let me 
go to that last point.
    Did the ADA submit a confidential document to the EPA that, 
in essence, argues that reducing dental mercury pollution 
through installation of amalgam separators is not cost 
effective or necessary?
    Dr. Eichmiller. I'm going to defer that to Jerome here, who 
has been working directly with the EPA on this.
    Mr. Burton. Well, it's a simple yes or no answer. Was that 
sent to the EPA saying it was not cost effective?
    Mr. Bowman. Mr. Chairman, we've made a proposal to partner 
with the EPA on a nationwide basis to address a series of 
issues relating to amalgam wastewater--amalgam discharges in 
wastewater, including recycling, including separators, 
including education.
    It is the position of the ADA, and the position we have 
taken to EPA, that there may well be environmental conditions, 
local environmental conditions that warrant something over and 
above voluntary BMPs. But absent those environmental 
conditions, it is our position that voluntary best-management 
practices are effective and suffice.
    Mr. Burton. OK. Let me just stop you right there.
    You know, if you were talking about something that was 
contained in a very small area, like Indianapolis, IN, for 
instance, where I live, or Crawfordsville, IN, it would be one 
thing. But this mercury gets into the water streams, the 
groundwater supply; it gets into the air when you burn this 
wastewater product, and it goes everywhere. And it gets into 
the fish we eat. And so, for the ADA to contact the EPA--and 
evidently you're admitting that happened, that you submitted a 
confidential document that argues that reducing dental mercury 
pollution through installation of amalgam separators is not 
cost effective or necessary--so the answer is yes, in effect, 
that's what you sent to the EPA, right?
    Mr. Bowman. Mr. Chairman, if I could just point out the 
next clause in what you were just referring to, specific 
environmental conditions.
    Mr. Burton. OK. In the document, ADA urges EPA to issue 
guidance practically devoid of amalgam separators that would 
recommend only voluntary BMPs unless environmental conditions 
or State law requires mercury reductions.
    Mr. Bowman. Correct.
    Mr. Burton. Yes. But the fact of the matter is, you did 
send a document, or documents, that said to that effect what I 
just read.
    And so you're saying, unless the local people, like in the 
State of Washington, say, you've got to do this, then it's 
going to be on a voluntary basis? And the State of Washington 
said, when it was voluntary, after 6 years, 24 out of 900 
dentists complied. That's a very, very small number. And since 
we know that 40 percent of the mercury that's going into our 
environment from--through the wastewater treatment plants is 
from dental amalgams, why in the world wouldn't you want to say 
to your dentists around the country, this is something you must 
do?
    Mr. Bowman. Mr. Chairman, if local authorities mandate 
separators, the American Dental Association will do everything 
it can to assist our members in obtaining and installing the 
correct separators.
    Furthermore, there are in place regulatory schemes that 
address surface water contaminant levels and sludge limits. If 
those limits or those levels are exceeded, again the American 
Dental Association is ready to assist our members to do what--
to do their fair share to help the environment. But where there 
is no specific environmental problem, it is our position that 
voluntary methods are sufficient and work well, yes.
    Mr. Burton. You know, that--I don't want to make light of 
what you said, but unless there's an environmental problem--any 
amount of mercury in the environment's not good. Any amount of 
mercury in your body's not good. It's just not.
    Do we have anybody here from the EPA?
    Mr. Kuzmack. Yes, my name is Arnold Kuzmack.
    Mr. Burton. Did you get the document from the ADA about 
this? Are you familiar with that?
    Mr. Kuzmack. Yes, I am familiar with the document.
    Mr. Burton. What is the EPA's response to that document?
    Mr. Kuzmack. What we're doing is, we have had a meeting 
with ADA and then we're continuing to have additional meetings 
to develop areas where we can cooperate. We do continue to 
support local and State agencies that want to either 
voluntarily or on a mandatory basis require separators. We 
would support that, and we would not----
    Mr. Burton. On a voluntary basis?
    Mr. Kuzmack. Or on a mandatory basis, depending on----
    Mr. Burton. Oh, would EPA prefer mandatory?
    Mr. Kuzmack. I think as long as it works, we don't care 
which way they do it.
    Mr. Burton. Well, when you just heard this figure that was 
quoted by the gentleman from the State of Washington that--
let's see, how much was it; 24 out of 900 over a 6-year period 
complied in a voluntary.
    Does that sound to you like it's effective?
    Mr. Kuzmack. In that case, obviously not. I believe there 
are other situations where they have been relatively effective.
    Mr. Burton. Really? Where?
    Mr. Kuzmack. Duluth, MN, for example.
    Mr. Burton. How many complied on a voluntary basis?
    Mr. Kuzmack. I don't have the figures in my head right now.
    Mr. Burton. Was it a high percentage?
    Mr. Kuzmack. My understanding is, it was a high percentage.
    Mr. Burton. Fifty percent?
    Mr. Kuzmack. I really couldn't say.
    Mr. Burton. Could you send me some statistical data on that 
to show that?
    Mr. Kuzmack. I'll try to find something, yes.
    Mr. Burton. Would you do that?
    Mr. Kuzmack. Yes, sir.
    Mr. Burton. OK.
    Dr. Eichmiller. We do have the information from the Duluth 
group, and it was near 100 percent compliance.
    Mr. Burton. On a voluntary basis up there?
    Dr. Eichmiller. That's correct.
    Mr. Burton. I wonder why it was only 24 out of 900 in the 
State of Washington.
    Dr. Eichmiller. I think that was an unfortunate situation 
where there was a lot of misunderstanding on both the side of 
the regulators and the regulated community.
    We've learned an awful lot from that, and that's one of the 
reasons why we have made such an effort to work with the 
regulators since then to try to put our constituent societies 
in touch with them, so they can come up together with a 
collaborative scheme.
    Mr. Burton. OK.
    Do you know who paid for the Duluth separators? Were they 
paid for by the individual dentists?
    Mr. Berglund.
    Dr. Eichmiller. I'm not sure.
    Mr. Berglund. Mr. Chair, I'm not sure about each and every 
single separator, but a good number of them were provided by 
the Western Lake Superior Sanitary District, the sewer board in 
Duluth.
    Mr. Burton. So the government up there was paying for them?
    Mr. Berglund. Right. Yeah, a good chunk of them. The person 
working in Duluth acquired some grant money and funded the 
acquisition. Some of the separators were given to Duluth by one 
of the manufacturers on a trial basis and in Duluth.
    Mr. Burton. Thank you.
    The gentleman from EPA, did you know they were paid for in 
large part by the government up there?
    Mr. Kuzmack. I was not specifically aware.
    I guess I'm not supporting--I'm not opposing mandatory 
requirements, but we are not requiring that either. If it 
works, it works.
    Mr. Burton. Well, the point is--and I don't know what your 
position is as far as authority over at the EPA is concerned, 
but if the ADA is coming to you with a voluntary approach and 
you see that in the State of Washington only a very small 
percentage of them complied, and then they use, as an example, 
another area where almost 100 percent complied, but the 
government was paying for the separators, you'd say, well, wait 
a minute. Of course, if somebody's buying me a car, I'd say, 
gee, that's great; I'll drive more safely.
    But the fact of the matter is, we're not going to be able 
to pay for all the dentists in the country to have these 
separators. It's going to have to be mandated by somebody; 
otherwise, it's going to get into the wastewater treatment.
    Now, let me just ask you one last question, and I'll let 
you gentlemen go, because I don't want to prolong this. It's 
getting rather late in the day.
    If we didn't have mercury in our fillings, would this be a 
problem? Of course not. That's the answer.
    If there's any question about the safety of the mercury in 
your mouth, why not get it out? If there's any question about 
the safety as far as sewage treatment plants are concerned, 
then why not get it out? If there's any question about the 
burning of it and its getting into the environment where we 
breathe it, then why not get it out? If there's any question 
about its getting into the waterways, then why not get it out?
    The only question is, and it's the same thing we found with 
the pharmaceutical companies as far as thimerosal and the 
vaccines; it's money. It's money. And it's unfortunate that the 
safety and the health of the American people comes down to the 
dollar because, you know, if there's any question about it, you 
ought to get that substance out of there. That's the question. 
You ought to get it out of there.
    And with that, I really, really appreciate your being here. 
This will not be the last hearing. We're going to have hearings 
around the country on this subject, and I hope that some day 
we'll see these things bear fruit.
    We stand adjourned.
    [Whereupon, at 5:36 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                   - 

</pre></body></html>
